      Pension Benefit Guaranty Corporation
           Office of Inspector General
                    Audit Report




     FY 2013 Audit of PBGC’s Compliance with the
Implementation of the Improper Payments Information Act




                    April 10, 2014
                                        AUD-2014-11/PA-14-99
This page intentionally left blank.
                                  Pension Benefit Guaranty Corporation
                                                                    Office of Inspector General
                                                   1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                             April 10, 2014


TO:                Joshua Gotbaum
                   Director
                   Pension Benefit Guaranty Corporation


FROM:              Rashmi Bartlett
                   Assistant Inspector General for Audit

SUBJECT:           Audit of PBGC’s FY 2013 Compliance with the Implementation of
                   the Improper Payments Information Act

                   Report No. AUD-2014-11/ PA-14-99


As required by the Improper Payments Information Act (IPIA) (P.L. 107-300), as amended by
the Improper Payments Elimination and Recovery Act (IPERA) (P.L. 111-204), the Pension
Benefit Guaranty Corporation’s (PBGC or the Corporation) Office of Inspector General (OIG)
audited PBGC’s compliance with IPIA requirements. As a result, we determined that PBGC has
instituted a systematic method to review its programs and activities for improper payments and
has complied with IPIA implementing requirements established in OMB Circular A-123
Appendix C. 1

The objective of our audit was to assess PBGC’s compliance with the requirements of the IPIA,
as amended. We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and perform
this audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions, based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. This audit was
conducted between December 2013 and April 2014 in Washington, DC.


Background

On July 22, 2010, the President signed IPERA 2 into law. IPERA amended the Improper
Payments Information Act. 3 Under IPERA, the head of each agency shall periodically review

1
    OMB Circular A-123, Management’s Responsibility for Internal Controls, Appendix C, April 2011.
2
    Pub. L. No. 111-204, 124 Stat. 2224 (2010).

                                                                                                              1
and identify all programs and activities it administers that may be susceptible to significant
improper payments based on guidance provided by the Director of OMB. 4

For each program and activity identified, the agency is required to produce a statistically valid
estimate or an estimate that is otherwise approved by OMB, of the improper payments and
include such estimates in the accompanying materials to the annual financial statements of the
agency. 5 The agency must identify and report programs and activities with significant improper
payments and the actions it took to reduce the improper payments. 6 A “significant improper
payment” is defined as:

        “gross annual improper payments (i.e. the total amount of overpayments plus
        underpayments) in the program exceeding (1) both 2.5 percent of program outlays and
        $10,000,000 of all program activity or activity payments made during the fiscal year
        reported or (2) $100,000,000 (regardless of the improper payment percentage of total
        program outlays).”

To their credit, since FY 2011, PBGC made considerable efforts to comply with IPIA. As a
follow-up to a pilot risk assessment that was coordinated with OMB in FY 2011, PBGC
conducted formal risk assessments of all of its payment streams in FY 2012. PBGC identified the
following major payment streams:

    •   Benefit payments to participants in final pay status for plans trusteed by PBGC under
        Title IV of the Employee Retirement Income Security Act (ERISA)

    •   Financial assistance payments to insolvent multiemployer plans that are unable to pay
        benefits when due under requirements of Title IV of ERISA.

    •   Payments to contractors for goods and services, including government credit card
        transactions.

Consistent with the OMB parameters established in Step 1 of OMB Circular A-123 Appendix C,
PBGC concluded that none of its payment streams were susceptible to significant improper
payment risk for FY 2012. Based on these results, OMB guidance did not require the
Corporation to perform any improper risk assessment in FY 2013. However, given the agency
focus on preventing and detecting improper payments and the nature of PBGC operations, PBGC
set a more aggressive schedule to assess the major payment streams referenced above on a
rotational basis. For FY 2013 PBGC assessed payments to contractors for susceptibility for
significant improper payment risk.


PBGC senior staff was directly involved in assessing the payments streams at risk for improper
payments and in the determination of error definitions. The Corporation also contracted with a

3
  Pub. L. No. 107-300, 116 Stat. 2350 (2002).
4
  Pub. L. No. 111-204 § 2(a)(1), 124 Stat. 2224 (2010).
5
  Pub. L. No. 111-204 § 2(b), 124 Stat. 2224, 2225 (2010).
6
  Pub. L. No 111-204 § 2(c), 124 Stat. 2224, 2225-2226 (2010).

                                                                                                    2
consulting firm to assist in its IPIA assessment. PBGC reports that it defined the FY 2013
reporting period for IPERA reporting purposes as those payments that were made during the last
six months of FY 2012 and the first six months of FY 2013. 7 For FY 2013, PBGC did not have
significant improper payments.


The IPIA as amended requires that each agency’s inspector general shall annually determine
whether the agency is in compliance with the Act. OMB guidance specifies that each agency’s
inspector general should review improper payment reporting in the annual financial report and
any accompanying materials, to determine whether the agency complied with IPIA.

Audit Results

We concluded that for the FY 2013 review of contractor payments, PBGC complied with
requirements as specified by OMB. Appendix B to this report describes the OMB established
factors for our IPIA assessment and our assessment of PBGC IPIA reporting.




7
    PBGC Annual Report FY 2013, Improper Payment Risk Assessment.

                                                                                                3
Scope and Methodology

Our objective was to assess PBGC’s compliance with the requirements of the IPIA, as amended.
In addition, we evaluated the Agency’s accuracy and completeness of reporting. To accomplish
our objectives, we:

   •   Reviewed applicable Federal Laws and Office of Management and Budget (OMB)
       guidance.
   •   Reviewed PBGC’s Improper Payment Assessment documented in the PBGC Annual
       Report 2013 (AR) for completeness and compliance with OMB requirements.
   •   Assessed the reasonableness of the payment streams PBGC selected for review.

   •   Interviewed and\or reviewed documentation prepared by the staff of the PBGC Chief
       Financial Officer, the PBGC Procurement Department, and the consulting firm hired by
       PBGC for the improper payment assessment.
   •   Reviewed a sample of the transactions reviewed by the PBGC contractor.

   •   For the sample transactions we, analyzed documents, calculations, and evidence used to
       determine the amount of improper payments resulting from PBGC operations for
       correctness.

   •   Reconciled PBGC AR improper payments reporting to consulting firm’s documents.

   •   Assessed PBGC statistical projections for compliance with OMB guidance.


This audit was conducted between December 2013 and April 2014 in Washington, DC. We
conducted this performance audit in accordance with generally accepted government auditing
standards (GAGAS). Those standards require that we plan and perform this audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                                                                4
APPENDIX A – Agency Response




                               5
APPENDIX B


                   OMB ESTABLISHED FACTORS FOR INSPECTOR GENERAL
                           TO REVIEW FOR IPIA COMPLIANCE
                                                          PBGC
    Item             Requirement/Criteria                 Status                      Comment
           Agency has published a PAR or AFR for
           the most recent fiscal year and posted that                  Annual Report published November
           report and any accompanying materials                        15, 2013. Report available on
    1      required by OMB on the agency website.         Complied      PBGC website.
                                                                        Risk assessment of major payment
                                                                        streams completed in FY 2012. As
           Agency has conducted a program specific                      no programs identified as
           risk assessment for each program or                          susceptible to significant improper
           activity that conforms to Section 3321 of      Not           payments, risk assessment only
    2      Title U.S.C (if required).                     Required      required ever 3 years.
           Agency published improper payment
           estimates for all programs and activities                    Improper payments below the
           identified as susceptible to significant                     significant threshold when
           improper payments under its risk               Not           calculated with consideration of the
    3      assessment (if required).                      Required      OMB-approved approach. 8
                                                                        Improper payments below the
           Agency published programmatic                                significant threshold when
           corrective action plans in the PAR or AFR      Not           calculated with consideration of the
    4      (if required).                                 Required      OMB-approved approach.
           Agency published, and has met, annual                        Improper payments below the
           reduction targets for each program                           significant threshold when
           assessed to be at risk and measured for        Not           calculated with consideration of the
    5      improper payments.                             Required      OMB-approved approach.
           Agency reported a gross improper
           payment rate of less than 10 percent for                      Improper Payment rates below 10%
           each program and activity for which an                       for all payment streams when
           improper payment estimate was obtained                       calculated with consideration of the
    6      and published in the PAR9 or AFR 10.           Complied      OMB-approved approach.
                                                                        Provision not applicable to entities
                                                                        that issue financial statements under
           Agency reported information on its efforts     Not           the Government Corporation
    7      to recapture improper payments.                Required      Control Act




8
  Significant improper payment defined as gross annual improper payments in the program exceeding both 2.5
percent of program outlays and $10 million or $100 million regardless of outlays. (OMB-Circular A-123 Appendix
C Part I A-7 a.
9
  Performance and Accountability Report.
10
   Agency Financial Report.

                                                                                                                 6
This page intentionally left blank.
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
